U.S. AGENCY


 D EVELOPMENT


                                                                                         March 5, 1999



        MEMORANDUM FOR                      Tom Fox,

        FROM:          A-AIG/A, Paul                .

        SUBJECT:       Audit of the Quality of Results Reported in         Operating Units’ Results
                       Review and Resource Request (R4) Reports Prepared in 1997 (Report No. 9-000-
                       99-006-P)

        This report summarizes the results of the Office of the Inspector General’s (OIG) USAID-wide
        audit of the quality of results reported in      operating units’ Results Review and Resource
        Request (R4) reports prepared in 1997. Audits were conducted at 18 operating units (Appendix


        This capping report makes one recommendation. The Bureau for Policy and Program
        Coordination (PPC) agreed that meeting the audit recommendation is highly desirable and that
        the recommendation can be met “over time”. However, based on the response provided for each
        of the four parts of the recommendation, we do not have a management decision because we
        could not determine whether PPC actually agreed to the specifics of the recommendation as to
        whether it would develop and implement quality standards and controls for both PPC and the
        regional and central bureaus. Also, while          memorandum did provide helpful information
        on what corrective actions were being taken in some cases, in others we were not able to
        determine exactly what specific actions were being proposed. Furthermore, PPC did not provide
        the dates for achieving the corrective actions as required by        policy other than observing
        that the recommendation can be met “over time.” Since we believe that it is critical for
        to implement the corrective actions on a timely basis, we recommended that            implement
        these actions in regards to the      prepared in 1999. However, PPC did not address this part of
        the recommendation. Since a management decision has not been made on the recommendation,
        we would appreciate a response within 30 days of the issuance of this report (April 6, 1999).
        Your response to our draft report is included in its entirety as Appendix II.

        I appreciate the courtesies and cooperation extended to the OIG audit staff during this
        wide audit.
                           EXECUTIVE SUMMARY

Federal laws and regulations require federal agencies to develop and implement internal
management control systems that (1) compare actual program results against those anticipated;
(2) provide for complete, reliable, and consistent performance data; and (3) ensure that
performance information is clearly documented and that the documentation is readily available
for examination (see page 1).

The objective of this audit was to determine if            operating units reported results data in
their annual Results Review and Resource Request (R4) prepared in 1997, which were
objectively verifiable, supported, accurate, complete, and validated. Our audit, which was based
on a statistical sample of 18         operating units, found that the operating units did not report
 1996 results data in their annual Results Review and Resource Request prepared in 1997, which
were objectively verifiable, supported, accurate, complete and/or validated. In fact, based on a
statistical sample, we found problems with 252 of the 302 results reviewed-or 83 percent (see
pages 2 and 3).

The above problems existed because of deficiencies or weaknesses at the following three levels
of organizations:

       Operating units did not always follow, or were not successful in following, prescribed
                policies and procedures for measuring and reporting on program performance.
       For example, 90 reported results were not objectively verifiable because operating units
       did not follow prescribed requirements for establishing objective indicators for which
       results could be objectively verifiable. Nor did operating units always assess data quality
       as part of the process of establishing performance indicators and choosing data collection
       sources and methods as prescribed (see pages 5 and 7).

       The Bureau for Policy and Program Coordination (PPC) did not provide sufficient
       direction/support and oversight in requiring operating units to follow prescribed
       policies and procedures-and federal requirements-for measuring and reporting on
       program performance. For example, PPC did not have (1) a system to monitor whether
       operating units followed prescribed                policies and procedures in reporting
       performance data in their       and (2) an action plan to correct identified problems: e.g.,
       whether results reported in the     were objectively verifiable and whether operating units
       had regularly assessed performance data to ensure that reported data was of reasonable
       quality and accurately reflected performance (see page 12).

       Regional and central bureaus need to better carry out their assigned responsibilities for (1)
       reviewing and assessing the performance of each of its operating units in achieving that
       units’ objectives and (2) managing the review of R4 submissions for operating units under

                                                 i
       their authority. For example, these bureaus did not require operating units under their
       authority to specifically discuss in their     what the operating unit did to assess the
       reliability of performance data reported by them (see page 10).

Performance measurement problems have been previously reported. For example, over the past
several years, the Office of the Inspector General has intermittently reported on weaknesses in
          ability to measure and report reliable program performance information. To illustrate,
two audit reports issued in June 1995 identified that        needed better direction and control
procedures to ensure that (1) objectively verifiable and measurable indicators are established to
measure project and program performance and (2) reliable and useful performance data are
reported and documented. Another audit report issued in March 1998 identified that 10 of 11
missions reviewed had not developed or finalized a formalized, ongoing system of data collection
and verification to report good performance data (see page 1).

In our opinion, without reliable performance data, decision makers have little assurance whether
an operating unit met, exceeded or fell short in achieving their program objectives and related
targets. The problems with performance indicators and reporting on performance also impair
operating units’ and            management’s abilities to measure progress in achieving the
operating units’ program objectives and to use performance information in budget-allocation
decisions. The problems also impair               ability to comply with laws and regulations: e.g.,
to have internal controls to ensure reliable information is obtained, maintained, reported and used
for decision making (see page 16).

This audit report includes one recommendation to the Bureau for Policy and Program
Coordination (PPC) aimed at improving               internal controls to ensure operating units
report quality performance data to measure actual results against what was anticipated. These
controls include better directions and oversight by                     management (see page
16).

In responding to a draft of this report, PPC agreed that meeting the audit recommendation is
highly desirable and that the recommendation can be met over time. However, based on the
response provided for each of the four parts of the recommendation, we do not have a
management decision because we could not determine whether PPC actually agreed to the
specifics of the recommendation as to whether it would develop and implement quality standards
and controls for both PPC and the regional and central bureaus. Also, while       memorandum
did provide helpful information on what corrective actions were being taken in some cases, in
others we were not able to determine exactly what specific actions were being proposed.
Furthermore, PPC did not provide the dates for achieving the corrective actions as required by
        policy other than observing that the recommendation can be met “over time.” Since we
believe that it is critical for       to implement the corrective actions on a timely basis, we
recommended that                implement these actions in regards to the    prepared in 1999.
However, PPC did not address this part of the recommendation (see Appendix II).

Office of the Inspector General
March 5, 1999

                                                 ii
                                     Table of Contents

                                                                              Pape

EXECUTIVE SUMMARY

INTRODUCTION

Background

Audit Objective

REPORT OF AUDIT FINDINGS

Did           operating units report results data in their Results Review
and Resource Requests prepared in 1997, which were objectively
verifiable, supported, accurate, complete, and validated?                        3

       Significant Problems With Performance Data
       Reported by          Operating Units                                      4

       Need for Better Internal Controls
       at the Operating Units

       Need for Better Direction and Oversight
       by                                                                        9

       Management Comments and Our Evaluation

APPENDICES                                                                  Number

Scope and Methodology                                                             I

Management Comments                                                              II

Federal Laws and Regulations and
Guidance Relevant to Measuring Program Performance                              III

Analysis of Operating Units’ 1996 Indicators and Results                        IV

Office of the Inspector General’s Audit Reports on the
Quality of Results Reported in         Operating Units’ Results
Review and Resource Request (R4) Reports Prepared in 1997                        V

Analysis of Reasons Cited by Operating Units for
Problems with the Indicators and Reported Results                               VI
                                        INTRODUCTION

Background
Federal laws and regulations require federal agencies to develop and implement internal
management control systems that (1) compare actual program results against those anticipated;
(2) provide for complete, reliable, and consistent performance data; and (3) ensure that
performance information is clearly documented and that the documentation is readily available
for examination. For example, Office of Management and Budget (OMB) Circular No. A-123
(dated June 2 1,        which is the Executive Branch’s implementing policy for compliance with
the Federal Managers’ Financial Integrity Act of 1982, requires agencies to have management
internal controls to ensure that (1) programs achieve their intended results; and (2) reliable and
timely information is obtained, maintained, reported and used for decision making.

Since            was established in 1961, it has initiated numerous systems to report on program
results. However, none of these systems have been fully successful. Over the past several years,
the Office of the Inspector General (OIG) has intermittently reported on weaknesses in
ability to measure and report reliable program performance information. Examples of these audit
reports include:

         Two audit reports issued in June 1995 which identified that                 needed better
         direction and control procedures to ensure that (1) objectively verifiable and measurable
         indicators are established to measure project and program performance and (2) reliable
         and useful performance data are reported and documented.

         A March 1998 report on            fiscal year 1996 financial statements which identified
         that 29 of the 38 quantified results reported in the program performance section (76
         percent) of the overview section were either incorrect, vague, or unsupported.

         Another audit report issued in March 1998 which identified that 10 of 11 missions
         reviewed had not developed or finalized a formalized, ongoing system of data collection
         and verification to report good performance data.

In light of the problems reported, and our continuing concern that these conditions may be
prevalent throughout           we decided to perform this USAID-wide audit to establish a



        The four audit reports referred to in this paragraph are Audit Report No. l-000-95-006 (dated June 30,
Audit Report No. l-000-95-007 (dated June 30,           Audit Report No. 0-000-98-001-F (dated March 2,          and
Audit Report No. 9-000-98-001-P (dated March 26, 1998).
baseline for future OIG audit work, to identify problems with current data reporting, and to
develop recommendations for improving data quality. This audit was not intended to assess the
quality of the performance indicators, but rather to determine if the performance results reported
in the      by operating units were objectively verifiable, supported, accurate, complete, and
validated.

A total of 18 operating units were selected* using a statistical sample. These 18 operating units
included 302 indicators for which performance results were reported for 1996. As of September
30, 1997, these operating units had obligated and expended in support of their active programs
a total of approximately $3.7 billion and $2.7 billion, respectively.

Audit Objective

The Office of the Inspector General performed a worldwide audit to answer the following
question:

         Did        operating units report results data in their Results Review and Resource
         Requests prepared in 1997, which were objectively verifiable, supported, accurate,
         complete, and validated?

Appendix I describes the audit’s scope and methodology.




        Twenty operating units were actually selected. One operating unit                        did not report any
performance results (or baseline data) for 1996. Another operating unit              was closed and the records were
sent to other locations. Therefore, no audit work was performed for these two operating units.

                                                         2
                                   REPORT OF
                                 AUDIT FINDINGS


Did         operating units report results data in their Results Review and
Resource Requests prepared in 1997, which were objectively verifiable,
supported, accurate, complete, and validated?

         operating units did not report results data in their Results Review and Resource Requests
       prepared in 1997, which were objectively verifiable, supported, accurate, complete
validated. As shown below, we found problems with the results reported for 252 of the 302
indicators                83 percent. Based on our statistical sample, we are 94 percent confident
that the number of results data reported in the      for 1996 which were not objectively verifiable,
supported, accurate, complete,           validated ranges between 1,580 and 1,658 results for 1996
out of a universe of 1,940.

Federal laws and regulations require federal agencies to develop and implement internal
management control systems that (1) compare actual program results against those anticipated;
(2) provide for complete, reliable, and consistent performance data; and (3) ensure that
performance information is clearly documented and that the documentation is readily available
for examination. For example, OMB Circular No. A-123 (dated June 21,               which is the
Executive Branch’s implementing policy for compliance with the Federal Managers’ Financial
Integrity Act of 1982, requires agencies to have management internal controls to ensure that (1)
programs achieve their intended results; and (2) reliable and timely information is obtained,
maintained, reported and used for decision making. Appendix III provides a further discussion
of relevant laws and regulations as well as related       policies and procedures.

For the purpose of this audit, our definitions are as follows:

       Objectively Verifiable-The indicator is objective and the results have to be objectively
       verifiable. This means the indicator has no ambiguity about what is being measured.
       That is, there is general agreement over interpretation of the results. The indicator is both
       unidimensional and operationally precise. To be unidimensional means that it measures
       only one phenomenon at a time. Operational precision means no ambiguity over what
       kind of data would be collected for an indicator.

       Supported-This means that there was adequate documentation that supports the reported
       result. The support should be relevant, competent, and sufficient (as noted in the General
       Accounting Office’s Government Auditing Standards). For example, a memo of a



                                                 3
         telephone conversation, or “best guesses” would not be considered adequate
         documentation.

         Accurate-This includes (1) being within plus or minus one percent (1 .O percent) of the
         actual documented result; and (2) being consistent with what was to be measured under
         the indicator, e.g., if the indicator was to vaccinate children under 5 years of age then the
         result would not be consistent if the supporting documents show that the result was for
         children under 3 years of age. The result would also not be considered accurate if
         supporting documents show that the result was achieved prior to January 1, 1996. (Note:
         Since we only reviewed results in the “performance data tables” for                 the result
         would not be considered accurate if supporting documents showed the result was achieved
         in 1992.)

          Complete-This means the result includes all data against what was anticipated to be
         measured for the indicator and is for a full year. For example, if 20 regions were to be
         measured but only 18 regions were measured, the result would not be complete. Also,
         if the results were only for a partial year (e.g., a six-month period), then the result would
         not be complete.

                          refers to the source of the data and the reliability of that source. We
         considered the source reliable if it came from an independent source such as the World
         Bank, United Nations (U.N.), independent evaluators, or an independent Demographic and
         Health Survey. If the data came from a contractor involved with the program or the host
         country government, the data would only be considered from a reliable source if
         or an independent entity had performed an assessment of the data and/or system for
         generating the data and found the data or system to be reliable. (For the purposes of
         audit, we are not reviewing              determination of validity of these independent
         sources.

Significant Problems With Performance Data
Reported            Operating Units

As shown in Appendix IV, our audit found               with 252 of the 302 results (83 percent)
reported for performance indicators for which results were reported in the     for 1996 by the




           To avoid duplicating the problems related to the reported results (e.g., a reported result could be both not
supported and not accurate), we classified only one problem according to the following hierarchy: not objectively
verifiable, not supported, not accurate and not complete. We did, however,          results as not validated (if applicable)
in addition to another problem because we believe that the requirement for operating units to assess the quality of data
sources was a distinct function and potentially related to each of the type of problems included in the hierarchy.

                                                             4
18 operating units included in our                   A breakdown of these problems and related examples


         Results for 90 indicators were not objectively verifiable. For example, one indicator in
                    Salvador’s R4 was “Salvadorans with increased knowledge of environmentally
         sound technologies and practices.” The 1996 reported result was 300 men and 300
         women. However, the Mission did not retain documentation on how the result was
         computed including its methodology. For example, the Mission did not have an
         acceptable definition of “increased knowledge.” As such, the performance indicator was
         ambiguous as well as not operationally precise.

         Also, for Africa Bureau’s Office of Sustainable Development                   one indicator
         was the              of improved structural policies, programs and strategies (SPP) for
         broad-based Economic Growth that are implemented by African partners, donors, and
                   missions.”          reported for 1996 that four policies, programs and strategies
         were implemented. However, this indicator was not objectively verifiable because the R4
         did not define or provide a baseline to measure “improved” policies, etc., or “broad-based”
         economic growth. The indicator is also not unidimensional because it attempts to measure
         three different conditions, “policies,” “programs,” and “strategies.”          also needed
         to be more precise in defining what it meant by “implementation,” since the unfamiliar
         reader could have interpreted implementing as an initiating event or completion of the
         event or somewhere in between.

         Results for 77 indicators were not sufficiently supported. For example, one indicator in
                                R4 was “Number of marriages registered in target communities
         increased.” The R4 reported 7,800. Mission officials said that this figure was based on
         telephone conversations with grantee officials.

         In another case, at                     the indicator was “Number and Value of
         guaranteed Loans Extended to                  The results data reported was based on
         information provided over the telephone by the financial institutions providing the loan
         servicing. Moreover, documentation subsequently received by the Mission from those
         institutions differed from the R4 results data.



        Individual audit reports were issued for each of the 18 operating units reviewed (See Appendix V for report
numbers and dates of issue). The individual audit reports discuss 143 specific examples of the 252 problems.

         The numbers will not total 252 because we classified results as not validated in addition to another problem as
noted previously in footnote number 3. As a result, of the 123 results classified as not validated, 108 pertained to the
results which had problems being objectively verifiable, not being supported, accurate or complete. However, 15 results
did not have any problems except that the results were not validated. Therefore, the 252 results with problems included
90 that were not objectively verifiable, 77 that were not supported, 49 that were not accurate, 21 that were not complete
and 15 that were not validated (although 108 of the remaining 237 results had problems with validation, not including
the previously mentioned 15 results which only had a validation problem).
Results for 49 indicators were not sufficiently accurate. For example, one indicator in the
Global Bureau’s Center for Human Capacity Development                 was “Primary school
achievement” and the unit of measure was the “5th Grade completion rate...” The R4
reported that the rate for 1996 was 64.2 percent. However, documentation provided by
        officials showed that this was the percentage for               1996. In addition,
the documentation showed that this was the percentage of children reaching grade five,
not completing that grade.

Results for another indicator, at                  was “Percent of Surveyed Population
Reporting Appropriate Perception of Risk of HIV.” The R4 reported that 41 percent of
the male and 47 percent of the female population surveyed had reported on their
individual perception of the risk of HIV. However, a review of the supporting documents
furnished by the Mission showed that such self-assessments of the risk of acquiring
HIV/AIDS were 32.8 percent for males and 43.2 percent for females.

Results for 21 indicators were not sufficiently complete. For example, one indicator, for
the Republic of Georgia in                     R4 report, was “Value of exports and
factor [sic] services.” The R4 reported $400 million supported by documentation from
the International Monetary Fund, but this amount was incomplete as it did not include
“non-factor        services”. Mission officials stated that the indicator should have been
changed accordingly.

At                   one indicator and the unit of measure was “Couple-Years of
Protection.” The reported result was 648,831. However, this result was not complete
because it reported results for nine months (October 1995 to June     rather than the
entire year.

Results for 123 indicators were not sufficiently validated.         For example, at
                     one indicator was “Vaccination Coverage for Urban Children
Increased and Sustained” and the unit of measure was the percentage of urban children
“fully vaccinated by one year.” The R4 reported an 81 percent achievement rate.
However, that rate was provided by a Government of Bangladesh source, which was not
independent nor were the results data and/or the system used to generate those results
assessed by the Mission or an independent evaluator.

In another example,                     had an indicator “Transition to community-based
Title II food aid program.” For this indicator, the reported data of 70 communities that
screened children, provided health education and distributed food was derived from a
report submitted to the Mission by Catholic Relief Services (CRS), the organization that
implemented this                    program. While Mission officials monitored this
activity, they did not perform an assessment or an evaluation to determine the validity of
the data reported by CRS.



                                         6
In many cases, a result had a problem for more than one reason. To avoid duplicating the
problems related to the reported results (e.g., a reported result could be both not supported and
not accurate), we classified only one problem according to the following hierarchy: not
objectively verifiable, not supported, not accurate and not complete. We did, however, classify
results as not validated (if applicable) in addition to another problem because we believe that the
requirement for operating units to assess the quality of data sources was a distinct function and
potentially related to each of the type of problems included in the hierarchy. As a result, the
number of problems noted above (i.e., 252 of 302 results) will not agree to the total of the
individual problem categories (as previously discussed in footnote number 5).

A specific example of nonduplicating problems was for the                           indicator
“Percentage of decisions (dismissal or indictment) resulting from formal criminal investigations
in the regional or other selected prosecutorial units.” The reported results were 27 percent for
the regional courts and 39 percent for the ordinary courts. However, the actual results were 47
percent and 55 percent respectively. The inaccurate results were reported because they were
based on data from a six-month period (January 1996 to June 1996) instead of a full year. Thus,
although the data was also “not complete”, we classified the result as “not accurate.”

In another case, a                 indicator was the “Number of local government units having
completed training modules.” The 1996 reported result was 22. However, the reported result
only reflected local communes and not other types of legally autonomous governmental units (as
defined by the indicator’s unit of measure). The                program did encompass other local
governmental units and was much larger in scope than what was reported. The Mission only
provided supporting documentation for the local communes, and this documentation showed a
result of 24 communes-two more than the 22 communes actually reported. Although we
classified the result as “not supported”, it was also “not accurate” and “not complete.”

The above problems existed because of deficiencies or weaknesses at the operating unit level and
at two                    organizational components: the regional and central bureau level, and
the Bureau for Policy and Program Coordination (PPC). These issues are discussed below.

Need for Better Internal
Controls at the              Units

The above problems existed because operating units did not always follow, or were not successful
in following, prescribed          policies and procedures [Automated Directives System (ADS)
200 Series] for measuring and reporting on program performance (as discussed in Appendix III).
For example, the operating units:

       Did not always ensure indicators were objective as prescribed by ADS E203.5.5;

       Did not always maintain documentation to support reported results as prescribed by ADS
       E203.5.5; and



                                                7
       Did not always assess data quality as part of the process of establishing performance
       indicators and choosing data collection sources and methods as prescribed by ADS
       E203.5.5.

Operating unit officials cited several explanations for not following, or not being successful in
following, the prescribed policies and procedures. As shown in Appendix VI, the explanations
provided by operating unit officials fall into four primary reasons: operating unit officials (1)
were not fully aware of              prescribed guidance; (2) needed to provide more attention to
ensure documents supporting reported results are obtained and maintained; (3) mentioned that
they did not have sufficient staff or funds to perform assessments to determine the quality of
reported results; and (4) said they lacked the expertise to develop good indicators and monitoring
systems to measure results (e.g., they need related training).

         officials at most of the operating units reviewed generally concurred with the findings
in the audit reports directed at their operations and expressed a real concern to improve their
to include results which are objectively verifiable, accurate, complete, and validated; and to
maintain documentation to support reported results. Also some of the operating units have
already taken action to resolve the problems found. Examples of the overall desire by operating
units to improve the performance data identified in their         and actions already taken include
the following:

       At             Salvador, the Mission stated that it is implementing the recommendations
       by (1) scheduling a briefing on the audit results for Mission program managers; (2)
       revising deficient performance indicators that are still in use; (3) reviewing the indicators
       that were not audited to see if they comply with ADS standards; (4) reviewing current
       roles and responsibilities within the Mission to see if a more effective program monitoring
       system can be developed; and (5) hosting training for Mission staff to address
       performance measurement issues.

       USAID/Guinea stated in its comments to the audit report that by November 30, 1998 it
       will hold a workshop with       its partners in which it will review all of its performance
       indicators to (1) determine that they are relevant; (2) ascertain that they are clearly
       defined and understood by all concerned parties; and (3) confirm that they are objectively
       and independently verifiable (e.g., unidimensional in measuring desired results).
       Additionally                  stated that it has drafted and will soon issue a mission order
       stipulating the mission requirements for a Performance Monitoring Plan. Also, all
       Mission Strategic Objective teams will have in place at the time of the preparation of the
       1999 R4 a mission approved Performance Monitoring Plan, which will include a time
       frame and plan for resolving data problems identified through the mission review process.

       In responding to the draft report, Global Bureau’s Center for Human Capacity
       Development               management accepted the findings and recommendations of the
       audit, and stated the findings were broadly in accord with its own internal assessment of
       the R4 prepared in 1997.             management also stated that it was taking steps to

                                                 8
       improve the R4 which will be prepared in 1999. For example,                        has hired a
       contractor to review performance indicators and collect performance data. Management
       also stated it will establish Indicator Review Panels, comprised of colleagues from around
                 to establish a revised set of indicators that reflect the best judgment of
       technical experts in basic education, higher education, training and information
       technology.

Need for Better Direction and
          bv

However, the operating units cannot be expected to resolve the problems themselves. We believe,
based on the results of the audit (i.e., problems with 252 of the 302 results--or 83
reported for performance indicators), that many of the problems found at the operating units can
be attributed to insufficient support (including direction) and oversight by USAID/Washington
bureaus to ensure operating units followed and effectively implemented prescribed
policies and procedures, as well as federal laws and regulations, for measuring and reporting on
program performance. Such support and oversight responsibilities are assigned by
Automated Directives System for Managing for Results, which was initiated in October 1995.

For example, the policies and procedures (ADS Sections 201            11 a and 203.3) prescribe the
following:

       Regional and Central bureaus are responsible for (1) providing oversight and support to
       their operating units in developing strategic plans for those operating units, (2) reviewing
       and assessing the performance of each of its operating units in achieving that unit’s
       objectives, and (3) managing the review of R4 submissions for operating units under their
       authority.

       PPC is responsible for (1) establishing            policy regarding strategic planning
       requirements; (2) reviewing and concurring with operating unit strategic plans for
       conformance with              goals and program policies; (3) with the Bureau for
       Management, conducting the           reviews of bureau budget submissions and ensuring
       that performance and results information is used in budget allocation decisions; and (4)
       providing technical leadership in developing            and operating unit performance
       monitoring and evaluation systems.

Based on the problems found at the operating units reviewed, we believe that the
                      bureaus’ staffs had not effectively carried out their assigned responsibilities.
As discussed below, the regional and central bureaus as well as PPC need to improve and
increase their efforts to carry out their assigned responsibilities.




                                                  9
                      and Central Bureaus

Although the regional and central bureaus reviewed the         prepared by the operating units under
their authority, as generally documented by memorandums or cables, the documentation prepared
for the reviews generally did not discuss specific problems that were identified during our audit,
and which should have been identified during the bureau review process. The regional and
central bureaus also did not require operating units under their authority to specifically discuss
in their     (1) what the operating unit did to assess the reliability of performance data provided
by others (e.g., contractors or host governments), (2) plans to verify and validate performance
data, and (3) significant data limitations and their implications for measuring performance results
against anticipated performance targets! In addition, even when specific problems were
identified, the bureaus generally did not establish an action plan (with specific timeframes) for
correcting the problems, except that the problems should be corrected by the next R4 submission.
In the few cases noted where an action plan was identified (e.g., assistance to be provided), the
required actions generally were not implemented.

Examples of insufficient bureau review or action include the following:
l
         The Global Bureau’s review of the Center for Human Capacity Development’s
         R4 in April 1996 identified problems with performance indicators not being objective.
         The R4 approval memorandum issued by Global Bureau in February 1997 stated:

                             agreed that, in the absence of complete performance data tables
                   (i.e., baseline and targets), results were not objectively verifiable. Before
                   the next R4 review, the Center will produce Agency-standard performance
                   data tables, develop additional performance indicators, and correct data
                   inconsistencies.”

         However, the problems were not resolved. Furthermore, although the Global Bureau
         reviewed            R4 in May/June 1997, the Bureau had not finalized its R4 “review
         agreements” memorandum, which was to summarize performance and specific agreements
         reached on           strategic objectives. The draft memorandum (as of March 26, 1998)
         did not identify specific problems with the R4 indicators and reported results; but, the
         memorandum did state that             agrees to have a complete performance monitoring
         plan in place before the next            Our review of           R4 prepared in 1997


          The Government Performance and Results Act (Results Act) requires federal agencies to prepare annual
performance plans which (1) establish performance indicators to be used in measuring or assessing the relevant outputs
and outcomes of each program activity, (2) provide a basis for comparing actual program results with the established
performance goals, and (3) describe the means to be used to verify and validate measured values. In relation to the
Annual Performance Plan, the U.S. General Accounting Office’s “An Assessment Guide to Facilitate Congressional
Decisionmaking”                         10.1.18) states: “The Results Act requires that agencies describe in their annual
performance plans how they intend to verify and validate performance data. The procedures should be credible and
specific to ensure that performance information is sufficiently complete, accurate, and consistent to document performance
and support decisionmaking...”

                                                           10
         identified problems with all 26 results reported for 1996: 21 were not objectively
         verifiable, four were not accurate, and one was not supported by documentation.

         The Bureau for Latin America and the Caribbean’s reviews of                        R4 in
         May 1996 and April 1997 identified problems with performance indicators and targets as
         well as the availability of quality data to measure performance. Documentation also
         showed that during the 1997 review,                       requested assistance from the
         Bureau to (1) refine performance indicators and targets and (2) provide training to
                             staff in performance measurement methodology. However, the
         requested assistance was not provided by the time of our audit in January 1998. Our
         review of                     R4 prepared in 1997 identified problems with all 15 results
         reported for 1996: eight were not complete, three were not supported, two were not
         objectively verifiable and two were not accurate. Also, 11 of the 15 were not validated.

                            officials said that they met with Africa Bureau officials to “informally
         discuss” the R4 at various technical review meetings.                  However, neither
         USAID/Zimbabwe nor Africa Bureau officials could provide any documentation to
         support the findings or agreements resulting from those reviews. Our review of
         USAID/Zimbabwe’s R4 prepared in 1997 identified problems with 7 of the 13 results
         reported for 1996 in which four were not supported and three were not accurate. Also,
         the same seven were not validated.

                               officials said “they were aware of the requirement that indicators had
         to be objective, but believed that applying the objectivity criterion to social science fields
         often requires more complex analyses as to what is being measured and what kind of data
         will be collected.” They also noted that since the indicators were approved by
                                 they believed that the indicators were appropriate. In fact,
                                  comments (dated May 5, 1997) on the R4 stated:
         overall assessment is that mission performance has been commendable...“’ Our review
         of                          R4 prepared in 1997 identified problems with 29 of the 30
         reported results tested for 1996: 13 were not objectively verifiable, 15 were not
         supported, and 28 were not validated.’


                                 comments did identify some concerns. For example, they stated that the R4 relies heavily
on service statistics, which may exhibit some inconsistency from year to year, thus partially lowering the confidence level
for the determination that progress towards three strategic objectives was “commendable and on track.” The comments
also stated that                        was ready to assist the Mission wherever possible to assure the quality and
measurability of the strategic objectives and their corresponding intermediate results.

          The numbers do not total 29 because we classified results as not validated in addition to another problem as
noted previously in footnote no. 3. As a result, of the 28 results classified as not validated, 27 pertained to the results
which had problems being objectively verifiable or not being supported. However, one result did not have any problems
except that the result was not validated. Therefore, the 29 results with problems included 13 that were not objectively
verifiable, 15 that were not supported, and 1 that was not validated (although 27 of the remaining 29 results had problems
with validation).

                                                            11
        Bureau for Policy and               Coordination

In our opinion, there was insufficient direction/support and oversight by PPC officials for
requiring operating units to follow prescribed             policy and procedures-and federal
                for measuring and reporting on program performance. For example, PPC did not
have (1) a system to monitor whether operating units followed prescribed             policies and
procedures in reporting performance data in their     and (2) an action plan to correct identified
problems; e.g., whether results reported in the       were objectively verifiable and whether
operating units had regularly assessed performance data to ensure that reported performance data
were of reasonable quality and accurately reflected performance.

In addition to a need to improve their participation-or at least the documentation of their
participation-and oversight in the R4 review process, PPC officials should also take a more
assertive role in promoting the need for operating units to follow prescribed         policies and
procedures and to meet federal requirements. For example, the                guidance cable issued
by PPC for preparing the         in 1997 did not emphasize the need for performance data to be
reported on a fiscal year basis. Although the cable stated that actual performance covered should
be through fiscal year 1996, the guidance essentially allows operating units to report whatever
performance data that happens to be available. For example, the guidance stated:

            cases where up-to-date performance data are not available because of the
       timing of data collection, you [i.e., operating units] should provide other evidence
       of progress toward achieving targets.”

Furthermore, the guidance issued for preparing the       in 1998 is even more vague on what was
required to be reported. Although the guidance states that the      should describe progress over
the past year relative to planned results defined by approved indicators and related baseline data
and targets, the guidance did not specifically mention that the actual results should cover fiscal
year 1997 nor that the results had to be consistent with the approved indicators and targets.
Instead the guidance stated:

       “Where up-to-date performance data are not available because of the timing of
       data collection, provide other evidence of progress, including proxy indicators,
       anecdotal material, or qualitative discussion.”

Concerning this audit, some PPC officials believed that the audit focused on “relatively minor
problems” and that the criteria we were using for assessing the performance data was too
stringent. For example, in August 1998, PPC officials who were responsible for managing
           system for measuring program performance sent us a memorandum based on their
review of five draft audit reports that were part of this worldwide audit. The officials believed
that the auditors’ criteria and standards for performance data resulted in incorrect and misleading
findings about the quality of results reported by         operating units. The officials stated that
while some problems remain as                 implements new systems to measure results under
difficult and diverse development circumstances, they believed that their track record in collecting

                                                12
and analyzing performance data is, in fact, quite strong. Also, the officials stated in December
1998 that performance data is just one significant element in determining whether progress is
being made against program objectives and related targets. Other elements include information
from program evaluations and the narrative sections of the

As previously discussed, the audits found problems with 252 of the 302 results reviewed
(identified in Appendix IV)-which computes to 83 percent-and included the following: 90
results not objectively verifiable, 77 results not supported, 49 results not accurate, 21 not
complete, and 123 results not validated. Furthermore, as discussed in this report, with the
exception of “validation”, we classified a result as having only one problem when, in many cases,
there were several problems (e.g., result being both not supported and not accurate). Therefore,
we do not agree with the PPC officials that the                    on “relatively minor problems.”

We also recognize that the standards used for this audit regarding accuracy and completeness
were stringent; but, we used these standards because                  had not established specific
standards. Furthermore, even though we used a stringent standard of one percent for determining
the accuracy of reported data, the individual audit reports (listed in Appendix V) show that the
auditors found at least 26 of the 33 reported results, had numerical differences. These differences
were not accurate by at least 5 percent-ranging between 7.4 percent and 226 percent.’

In addition, we recognize that other sources of information in addition to performance indicator
results reported in the      are used to make decisions. However, the              Performance
Monitoring and Evaluation Series (TIPS) number 6 states:

         “Performance indicators are at the heart of a performance monitoring system, they
         define the data to be collected to measure progress and enable actual results
         achieved over time to be compared with planned results. Thus, they are a
         indispensable management tool for making performance-based decisions about
         program strategies and activities.”

The problems of inadequate                      direction and oversight for program management
had been identified in other reports. For example:

         A joint                 “SWAT Team” report issued in July 1992 stated: “There is no
         uniform guidance for oversight of field activities.” The report stated that the Washington
         office that should have played a major role in setting standards and defining responsibility
         for field activity monitoring failed to do so. As a result, there was no central guidance
         to Mission Directors to assure consistent and adequate field activity monitoring. The
         report concluded that a lack of uniform guidance and standards, compounded by


         The individual audit reports identified 49 results that were classified as “Not Accurate,” but the auditors were
not able to determine how much the numerical difference was for nine results because the actual result could not be
determined. For example, if the result was to include data from two sources but only included data        one source, the
reported result was not correct but the actual numerical results could not be determined.

                                                           13
         inconsistent bureau requirements, creates confusion and weakens oversight. The SWAT
         Team also concluded that without clearly articulated responsibilities and standards, neither
         Washington managers nor Mission Directors could be held accountable for oversight of
         field activities. The SWAT Team recommended that                      (1) clearly define the
         responsibilities for project and program activity monitoring and oversight at all levels
         including                       regional bureaus, Director of Policy, and the Administrator
         and Deputy Administrator; (2) develop and implement USAID-wide standards for
         reporting project and program activity status; and (3) formally specify the information
         required for project and program oversight at each level of management and communicate
         these needs up and down the organizational ladder.

         Also, a 1995 OIG audit              identified that                      needed to provide
         direction and oversight to ensure operating units establish objectively verifiable indicators
         to measure program performance and report reliable performance data.                     The
         recommendations in that audit report were closed based on PPC and the Regional and
         Central bureaus being assigned the responsibilities to ensure operating units follow
         prescribed guidance for monitoring program performance.                 Unfortunately, the
                              b u r e a u s have not effectively implemented their assigned
         responsibilities.

Furthermore, during the audit, the Chairman of the House Committee on International Relations
sent a letter to the       Administrator in April 1998 regarding               Fiscal Year 1999
Annual Performance Plan (submitted to the House in February 1998). The letter commended
         staff on the hard work and dedication to the implementation of the Government
Performance and Results Act, which required an Annual Performance Plan for measuring program
performance. However, the letter noted that the Plan fell short in three key areas, one of which
was:

         “Independence: under the plan it appears that program officers and missions will
         measure their own baselines, set targets and measure their progress towards those
         targets. For this system to truly work, AID must establish independent evaluators
         to measure these three factors to ensure honest grading outside without the
         inherent conflict of interest of program officers measuring the performance of their
         own projects.”

In response to the Chairman’s concerns,           management (in a letter sent August 27, 1998)
stated that various controls within            review and approval process intend to keep
assessments from becoming self-serving. For example,           management stated that operating
units must report their progress annually in the R4, which is sent to                      They
cited the following controls:



         Audit Report on       Systems for Measuring Program Results (Report No. l-000-95-006; dated June 30,
1995).

                                                    14
           .At the operating unit level, these self-assessments are reviewed and confirmed
        by the Mission Director before being reported to Washington. In Washington,
        they are reviewed by panels of individuals knowledgeable about the sector and/or
        country and region. These individuals either validate the operating unit’s self
        assessment of performance or disagree with it and explain why. Washington
        decisions on staffing and resources are informed by this independent assessment
        of performance..

        This is not to say our system is perfect. It is new and there are gaps in it. We
        are well aware that problems with the validity and reliability of program level data
        exist. The nature and degree of these problems vary across operating units, the
        countries, and sectors within which            works, but we are trying to resolve
        these issues in ways compatible with the quality of data normally available within
        our work environment..

Subsequent to the completion of the field work for this audit,                issued “Guidelines for
Indicator and Data Quality” (TIPS No. 12) in October 1998 which was intended to identify (1)
key criteria for operating units to use in assessing the quality of their performance indicators and
data and (2)             review and approval procedures for indicators and related data. The
guidelines state: “Because performance data have become more important to Agency decisions,
clear criteria for judging the quality of these data have become increasingly crucial.”

Although the guidelines emphasize the need for better performance indicators and quality data,
we believe the guidelines fall short of correcting the problems discussed in this audit report,
especially the need for better direction and oversight by                       For example, the
new guidelines merely restate the requirements for objective indicators and procedures to validate
the reliability of data, requirements that already exist in prescribed              policies and
procedures (as discussed in Appendix III) which were used as the criteria for this audit. Also,
the new guidelines do not specifically discuss what documentation is acceptable to support
reported results and how long the documentation needs to be maintained. The audit identified
that at least 207 of the 302 results reviewed--or 69 percent-had problems in meeting these three
criteria (i.e., objectively verifiable, supported, and validated).

In addition, in response to a previous OIG audit recommendation, PPC reported in its 1998
Federal Manager’s Financial Integrity Act submission to the Administrator that                 has a
material weakness regarding performance measurement.                 reported that its performance
reporting does not yet adequately link its performance goals with its programs, ensure sufficiently
current results or adequate quality of indicators, thereby limiting the utility of these systems as
a management tool. PPC further noted that this material weakness impaired                  ability to
obtain, maintain, report and use reliable and timely performance information for decision making.

In our opinion, without reliable performance data, decision makers have little assurance whether
an operating unit met, exceeded or fell short in achieving their program objectives and related
targets. We believe that the problems with performance indicators and reporting on performance


                                                 15
show weaknesses in            internal controls to prepare reliable performance information. And,
in turn, these weaknesses impair operating units’ and            management’s abilities to measure
progress in achieving the operating units’ program objectives and to use performance information
in budget-allocation decisions. The problems also impair                ability to comply with laws
and regulations. Therefore,                       bureaus need to ensure that indicators included
in operating units’     are objective, that quality data is available to measure performance, and
that operating units regularly assess performance data identified in their         to ensure that the
data is accurate, complete, supported by documentation from reliable sources, and that the
supporting documentation is maintained. Also,                needs to develop a more structured
system to monitor the progress by operating units in correcting data limitation problems identified
in the

       Recommendation No. 1: We recommend that the Bureau for Policy and Program
       Coordination develop and implement quality standards and controls for the Bureau
       for Policy and Program Coordination and the regional and central bureaus (for
       operating units under their authority) to assure that (a) the indicators in the   are
       objective and clearly defined regarding what specific results are to be measured (b)
       performance data reported in operating unit         prepared in 1999 are sufficiently
       accurate, complete, validated and supported, (c) any deficiencies in meeting these
       standards are fully disclosed including the reasons for the deficiencies, and (d)
       appropriate plans (including a timeframe) for correcting such deficiencies are
       discussed.


Management Comments and Our Evaluation

We appreciate the comments provided by the Bureau for Policy and Program Coordination (PPC)
to our draft report. We recognize that             must abide by the various government
performance requirements such as the Government Performance and Results Act (GPRA). PPC
has responded to these requirements, for example, by revising its guidance for R4 results
measures and issuing technical guidance (TIPS). PPC has also prepared a “PPC Work Plan for
Overseeing the Agency’s Implementation of the Results Act and Key Related Tasks.” This work
plan focuses on the key aspects of planning, measurement, monitoring and reporting of
performance results.

In addition to the above, PPC agreed that meeting the audit recommendation is highly desirable
and that the recommendation can be met “over time”. However, based on the response provided
for each of the four parts of the recommendation, we do not have a management decision because
we could not determine whether PPC actually agreed to the specifics of the recommendation as
to whether it would develop and implement quality standards and controls for both PPC and the
regional and central bureaus. Also, while          memorandum did provide helpful information
on what corrective actions were being taken in some cases, in others we were not able to
determine exactly what specific actions were being proposed. Furthermore, PPC did not provide
the dates for achieving the corrective actions as required by       policy other than observing

                                                 16
that the recommendation can be met “over time.” Since we believe that it is critical for
to implement the corrective actions on a timely basis, we recommended that            implement
these actions in regards to the    prepared in 1999. However, PPC did not address this part of
the recommendation.

Regarding part (a) of the recommendation, PPC’s response mentioned that it has been aggressive
in working to comply with the GPRA mandate and that            is using a phased approach to
improving its measurement of results as evidenced by a GPRA work plan issued in September
1998. However, this work plan is very general and it does not address the specifics of this
recommendation.

PPC’s response for part (b) talked about the definitions for what constitutes accurate, complete,
and validated data. However, we could not determine if PPC was agreeing that it would develop
and implement quality standards and controls for both PPC and the regional and central bureaus.
PPC needs to implement these standards and controls to ensure that performance data reported
in operating unit    are sufficiently accurate, complete, validated and supported.

For part (c), PPC stated that in its       work plan,         intends to assess the effectiveness
of the checks and balances in the reporting process. This plan calls for the production of a “best
practices” description of how compliance with standards will be implemented and checked upon
by PPC. We agree that PPC had noted what corrective action it will take. However, we cannot
agree that a management decision has been reached because PPC did not provide the date when
this planned action will be accomplished.

Regarding part (d) of the recommendation, PPC said that it will modify its GPRA work plan to
include the appropriate planning necessary to correct the deficiencies agreed to in part (c) of the
recommendation. In effect, PPC has noted the general corrective action that it will take, but they
did not specify whether timeframes will be established for correcting deficiencies.

We appreciate the cooperation that PPC has provided to our audit team during this audit.




                                                17
                                                                                    APPENDIX I
                                                                                     Page 1 of 2



                                  SCOPE AND
                                 METHODOLOGY


Scope

We audited           operating units’ internal management controls for ensuring that they reported
objectively verifiable, supported, accurate, complete, and validated performance results data in
their Results Review and Resource Request (R4) reports. (See pages 3 and 4 of this report for
definitions.) We audited only the results (including baseline data) reported for 1996 in the
prepared in 1997. The audits were performed in accordance with generally accepted government
auditing standards and were conducted at 18 operating units from October 1997 through
December 1998.

We limited our work on the quality of data to the results for only (1) the performance indicators
identified in the “performance data tables” in the R4 (prepared in       and (2) the actual results
for which such data was shown for 1996. Therefore, if no actual results for an indicator were
shown for 1996, we did not assess the validity and reliability for the results for that indicator.
We did not review results reported in the narrative portion of the R4.

We also did not attempt to determine if the baseline data and the results reported for 1996 were
consistent and based on comparable data.

Methodology

This audit was a worldwide audit. Twenty operating units were originally selected using a
random sample based on assistance from statisticians from the Department of Defense’s Office
of Inspector General. One operating unit                 did not report any performance results
(or baseline data) for 1996. Another operating unit                 was closed and the records
were sent to other locations. Therefore, no audit work was performed for these two operating
units.

To accomplish the audit objective, we interviewed officials from various operating units, regional
and global bureaus, and the Bureau for Policy and Program Coordination. We also reviewed the
documents which supported the reported results. Where problems were found, we verified to the
extent practical, the causes of the problems. This included additional interviews with
personnel.

To avoid duplicating the problems related to the reported results (e.g., a reported result could be
both not supported and not accurate), we classified only one problem according to the following
                                                                                    APPENDIX I
                                                                                     Page 2 of 2

hierarchy: not objectively verifiable, not supported, not accurate and not complete. We did,
however, classify results as not validated (if applicable) in addition to another problem because
we believe that the requirement for operating units to assess the quality of data sources was a
distinct function and potentially related to each of the type of problems included in the hierarchy.

For each operating unit, if the results reported for the indicators were found to be objectively
verifiable, supported, accurate, complete and validated: (a) 95 percent or more of the time, (b)
80 to 94 percent of the time, or (c) less than 80 percent of the time, we would provide a positive,
qualified, or negative answer to the audit question, respectively.
                                                                          APPENDIX II
                                                                            Page 1 of 6


                   MANAGEMENT
                    COMMENTS




                  Acting          Paul Armstrong
                           Thomas H. Fox

SUBJECT :         Audit of the Quality of Results Reported in
                        Operating Units' Review and Resource
                  Request (R4) Reports Prepared in 1997
                  (Report No.
Thank you for providing PPC an opportunity to comment on
the audit of the Quality of Results Reported in
Operating Units' Review and Resource Request      Reports
prepared in calendar 1997. PPC fully agrees with OIG that
meeting the audit recommendation is highly desirable.
believes that it can be met over time.
PPC understands and accepts that the OIG does not approve
of the Agency's existing standards         approach to refining
standards on the basis of experience (i.e., learning by
doing)     PPC also accepts OIG's audit findings based on
their application of OIG's standards. However, as the
Agency' repeatedly noted throughout this audit, a number of
the quality standards used in this audit are not l i k e l y
to be the ones       will ultimately use because they have
not been demonstrated to be feasible or appropriate in
        working environment. The OIG's use of relatively
absolute and stringent standards as defined in this audit
 (e.g., accurate "within plus or      one percent") remains
questionable. The institutional and financial cost of
achieving OIG standards in all           and for all
activities has not been evaluated relative to the benefits

      term "Agency" rather than "FFC"     used         PPC actively
involved all operating bureaus in this audit from the outset. Indeed,
actively involving operating bureaus reflects the importance PPC places
on audits of data            Also, enqaqinq operatinq bureaus in this
manner is a PPC tool for ensuring that bureaus            standards and
controls the same
                                                              APPENDIX II
                                                                Page 2 of 6




derived from meeting OIG standards. There will be
countries and activities for which a lesser standard (and
lower cost) will still provide adequate information upon
which better management decisions can be made.

Given the complexities and pitfalls in setting standards,
the Agency approach to improving performance information
to incrementally realign and refine guidance and standards.
      will make changes based upon its reviews of emerging
experience (to which this audit contributes) and on
balancing the desire for better performance information
with the demand for programs being implemented.
expects this OIG audit will be helpful in identifying where
greater effort could improve         oversight of results
measurement. Findings in Office of Inspector General audits
often improve         implementation. However,        would
like to establish more clearly the standards of successful
results measurement systems and approaches before OIG
begins any future audits to assess the adequacy of
performance measures. The absence of such a clear
understanding before and during this audit let to some
confusion and contention about what standards are, or
should be applied, to measure results.


SPECIFIC ASPECTS   OF THE

FIRST PHRASE of the recommendation:      recommend that the
Bureau for Policy and Program Coordination develop and
implement quality standards and controls for the Bureau for
Policy and Program Coordination's and the regional and
central bureaus' (for operating units under their
authority).,."

      will continue to set policy to define, refine and
implement quality controls within guidance and feedback
provided from OMB and Congress.   Its oversight role will
continue to evolve, just as federal government performance
standards change under             and the other 12 acts
described by the GAO in Managing for Results-the Statutory
Framework for Performance-based Management and
Accountability.       constant adjustment to statutory
requirements is demonstrated by the bureau's ongoing
revision of guidance for R4 results measures, technical
(TIPS) best practices, move to an off-the-shelf-accounting
systems and many other tools required to measure results.
                                                                   APPENDIX II
                                                                     Page 3 of 6



                                                               3

                   part (a)        indicators in the    are
              and clearly defined regarding what specific
result6      are   to   be   measured"


The report indicates that          performance indicators
are currently structured so as to preclude it from
reporting accurate performance data.         has been very
aggressive in working to comply with the GPRA mandate.
Based on the experience gained        believes it is
appropriate to simplify our measurement process so that
policy officials, counterparts and stakeholders will
understand and accept which measures can be quantified
readily and which cannot.        agrees that where it
establishes measures which rely on quantitative data, the
data must be readily available and routinely verifiable.
Results measures will be discontinued (as provided for in
    requirements) if they are not effective and economical
to maintain and to review. PPC and the CFO staff will work
together to better integrate GPRA and       requirements for
performance measurement.        invites the OIG staff to
work with it on redefinition of the requirements of
and
        phased approach to improving its measurement of
results is again evidenced in PPC's recently issued
clarifying guidance to         Missions about      documents
used for reporting on measurement of results. On September
18, 1998        Assistant Administrator also approved an
internal "PPC Work Plan for Overseeing the Agency's
Implementation of the Results Act and Key Reiated Tasks.
This guidance responds to several findings in this audit.
However, there are some differences and measures that
require clarification between OIG,         and others. One
primary difference is the need to clarify that the term
"objective" can mean non-quantifiable, as is permitted
under       While most indicators can be quantified, there
are important ones in some goal areas, such as democracy
and governance, that are not. The definition provided by
the IG does not exclude non-quantifiable data.
Recommendation part     "Performance data reported in
operating unit   prepared in 1999 are sufficiently
accurate,   complete, validated and supported,"
It is necessary for the OIG and PPC to come to agreement on
the definition of what constitutes accurate, complete,
validated and supported data. Such a definition may be
                                                                   APPENDIX II
                                                                     Page 4 of 6




                                                               4

forthcoming from others as GPRA,       and other reporting
Acts are modified and refined. If that does not occur PPC
proposes to formally meet with OIG staff, and other
interested parties, within three months of the issuance of
this audit to agree upon more precise definitions of
"quality standards and controls."    PPC believes that the
term "accurate" needs clarification beyond what is in the
audit report. There are several ways that this term can be
used, and precision is required:
     a.   Accurate means that the figure reported
          faithfully repeats the findings in the source
          document. i.e., that the value presented in the
          report is essentially the same as in the source
          document, and that there is no transcription
          error.
     b.   Accurate means that, if numbers are rounded, it
          can only be done on the third significant figure.
          If a report states that a particular figure is
                   for example, the R4 could report it as
          '78' but not as 80.
     C.   Accurate means that the reported value meets the
          definitional criteria, i.e., that if the
          indicator requires nutritional status of children
          under three is required, that nutritional status
          of children under age one or five is not
          accurate.
    d.    Accurate can also mean how close the indicator is
          to 'reality'. In statistics, this is the
           'standard error', and is usually represented by a
          range around the figure, i.e., 78      While the
          IG report does not address this meaning of the
          term, it is an issue that needs to be addressed.
          Thus, for example, UN figures are supposed to be
                of the 'real' value. Some       surveys,
          such as the Demographic and Health Survey, is
          supposed to be within       While the greatest
          accuracy possible is always desired, the cost of
          increasing accuracy increases exponentially.
          Thus, for example, a survey with an accuracy of
              will cost approximately ten times the amount
          of one that is
                                                                  APPENDIX II
                                                                    Page 5 of 6




                                                              5

Complete: PPC agrees that data should be 'complete' in that
they include all data that was anticipated for the
indicator and the time-period.          in the real world,
there are times that 'complete' data are not available. For
the example cited, for example, it may be that one year
data are available for all 20 provinces, and that the next,
because of insurrection or floods, data for only    are
available. Reporting 'incomplete' data is acceptable if the
discrepancy is referenced.
Validated: PPC agrees that      requires       to estimate
the validity of data presented in its reports. However, in
practice, this can be very difficult to do, if for example,
the only economic data for a particular country is that
reported by the Ministry of Finance in its application for
a World Bank loan. It is often not feasible or cost
effective for        to establish a separate survey to
determine such data, and in these cases it is acceptable to
report the questionable data, If the concerns are
documented in the report.
               part      "any deficiencies in meeting these
standards are fully disclosed including the reasons for the
the deficiencies,"

      September 18, 1988 Work Plan for Overseeing the
Agency's Implementation of the Results Act and Key Related
Tasks describes, in section 5.1, how       intends to
"assess and monitor checks and balances in the [reporting]
processes. This plan calls for production of a "best
practices" description of how compliance with standards
will be implemented, and checked upon by PPC. Once the
best practices guide is completed it is hoped that OIG will
review it to ensure it has adequate measures for meeting
standards, and for disclosing reasons for deficiencies in
meeting standards.
Recommendation Part      "appropriate plans (including a
time frame) for correcting such deficiencies are
discussed."

PPC will be modifying its September 18, 1998 Work Plan to
ensure that it includes the appropriate planning necessary
to correct deficiencies agreed to in part(C) of the
recommendation.
                                                                  APPENDIX II
                                                                    Page 6 of 6




                                                              6

In the future         criterion for data-gathering will
increasingly emphasize that all data gathered must be
useful for management purposes as envisaged by the new
Managerial Cost Accounting Standards.        last review of
the       budget indicated that they were already able to
use       performance information to evaluate
proposed budget
Implementing results reporting requirements in an Agency
like        with funding in more than 100 foreign
countries, is complex. These countries and the thousands of
      non-governmental and private voluntary agencies
working in them with        often find it difficult to
conform to performance standards and fiscal year accounting
different from their own.
In conclusion, PPC recognizes the importance of good
performance information to effective management and looks
forward to working with the OIG towards this end.
                                                                                  APPENDIX III
                                                                                     Page 1 of 3

                    Federal Laws and Regulations and       Guidance
                       Relevant to Measuring Program Performance

There are numerous federal laws and regulations requiring       (and other federal agencies)
to develop and implement internal management controls to measure and report on program
performance. Discussed below are examples of those requirements and related         policies
and procedures.

Laws and

The Chief Financial Officers Act of 1990 requires management internal controls which provide
for (1) complete, reliable, consistent, and timely information which is prepared on a uniform basis
and which is responsive to the financial information needs of agency management; and (2) the
systematic measurement of performance.

Standards for Internal Controls in the Federal Government issued by the U.S. General Accounting
Office in 1983 require systems of internal controls that ensure that all transactions and other
significant events are to be clearly documented, and that the documentation be readily available
for examination.

OMB Circular No. A-123 (dated June 2 1,           which is the Executive Branch’s implementing
policies for compliance with the Federal Managers’ Financial Integrity Act of 1982, requires
agencies to have management internal controls to ensure that (1) programs achieve their intended
results; and (2) reliable and timely information is obtained, maintained, reported and used for
decision making.

The Foreign Assistance Act (Section       as amended in 1968, requires          to develop and
implement a management system that provides for comparing actual results of programs and
projects with those anticipated when they were undertaken. The system should provide
information to        and to Congress that relates        resources, expenditures, and budget
projections to program objectives and results in order to assist in the evaluation of program
performance.

        Policies and Procedures

The most recent           system, known as the Automated Directives System for Managing for
Results (ADS 200 Series), for measuring and reporting on program performance was initiated in
October 1995. This new system requires (Section 203.5.1 a) that operating units establish
performance monitoring systems to regularly collect and analyze data which will enable them to
track performance and objectively report on the progress in achieving strategic objectives and
intermediate results. The ADS also requires (Sections                  E203.5.5 and
operating units to:
                                                                                   APPENDIX III
                                                                                      Page 2 of 3

    establish objective performance indicators (with related baseline data and targets) to measure
    progress in achieving program objectives;

    critically assess the performance data at regular intervals to ensure that reported performance
    data are of reasonable quality and accurately reflect performance; and

l   prepare an annual Results Review and Resource Request (R4) report which must include
    performance information on progress in achieving its program objectives for the immediate
    past fiscal year.

ADS Section E203 5.5 also states:

    “The Agency and its operating units shall establish performance monitoring systems which
    meet Agency standards for: developing performance indicators and baselines, managing
    and documenting the data collection process and ensuring the quality of performance
    data.

ADS Section E203          further requires operating units to (1) assess data quality as part of the
process of establishing performance indicators and choosing data collection sources and methods;
(2) collect results data for each performance indicator on a regular basis; and (3) reassess data
quality as is necessary but at intervals of no greater than three years. These policies and
procedures also state that if data for a performance indicator prove to be unavailable or too costly
to collect, the indicator may need to be changed.

In addition, ADS section            states that        will conduct a review of performance on
an annual basis which will include analyzing operating units performance and “shall focus on the
immediate past fiscal year”, but may also review performance for prior years.

The          Performance Monitoring and Evaluation Series (TIPS) number 6 “Selecting
Performance Indicators,” which is supplemental guidance to the ADS, defines objective as:

    “An objective indicator has no ambiguity about what is being measured. That is, there
    is general agreement over interpretation of the results. It is both unidimensional and
    operationally precise. To be unidimensional means that it measures only one phenomenon
    at a time. . . . Operational precision means no ambiguity over what kind of data would be
    collected for an indicator. For example, while number of                  export firms is
    ambiguous, something like number of export firms experiencing an annual increase in
    revenues of at least 5 percent is operationally precise.”

TIPS No. 6 also states:

    “Performance indicators are at the heart of a performance monitoring system--they define
    the data to be collected to measure progress and enable actual results achieved over time
                                                                                   APPENDIX III
                                                                                      Page 3 of 3

    to be compared with planned results. Thus, they are a indispensable management tool for
    making performance-based decisions about program strategies and activities.”

TIPS No. 7 “Preparing a Performance Monitoring Plan,” which is also supplemental guidance to
the ADS, stipulates that each performance indicator needs a detailed definition. The definition
should be detailed enough to ensure that different people at different times, given the task of
collecting data for a given indicator, would collect identical types of data. The definition should
be precise about all technical elements of the indicator statement. For example, the TIPS states:

    “As an illustration, consider the indicator number of small enterprises receiving
    the private banking system. How are small enterprises defined -- all enterprises with 20
   or fewer employees, or 50 or        What types of institutions are considered part of the
   private banking sector -- credit unions, government-private sector joint-venture financial
   institutions?”

          guidance issued in January 1997 for preparing the             stated that the goal of the
guidance was to generate          which ensure that                           management has the
information they need to make results-based resource allocations among operating units and report
on            achievements. The guidance also stated that the most effective          are those that
(1) assess performance over the life of objectives, with an emphasis on the past year, using
established indicators, baseline data and targets; and (2) state explicitly whether and how much
progress or results surpassed, met or fell short of expectations. The guidance stated that the
results should cover actual performance through fiscal year 1996.
                                                                                                           APPENDIX IV


                         Analysis of Operating Units’ 1996 Indicators and Results
                               (as reflected in their   prepared in 1997)”


                        Total          Total      Total       Not           Not          Not         Not          Not
    Operating          Results        without     with     Objectively   Supported     Accurate    Complete     Validated
      Unit            Reviewed       Problems   Problems   Verifiable

                          25                       24                         2                        0            0

                          2              0         2            0             1                        0            0

                          4              0         4            0             2                                     0

                          26             0         26                                     4            0            0

  Bangladesh              30                       29                                     0           0            28

  Colombia                15            0                       2             3           2           8

  Ecuador                 25            3          22           7             8           7           0

  El Salvador             25                                    4             6           3           0             7

  Georgia                               0                       3             4           3           2             3

  Guinea                                6          9            3             3           0           2             4

  Haiti                   25            2          23           3             8           7           2            19

  India                   25            8                       2             3           6           5             3

  Madagascar              18            8          IO           0             7           2           0            4

  Mexico                                2          14           4             8           2           0            9

  Nigeria                 2                                     0             0           0            1

  Reg.                     1            0                       0                         0           0            0

  Senegal                 23                       22           7                         7           0

  Zimbabwe                              6          7            0            4            3           0             7

  Total                  302            50        252          90            77           49          21




                                           related to the reported results (e.g., a reported result could be both not
            To avoid duplicating the problems
supported and not accurate), we classified only one problem according to the following hierarchy: not objectively
verifiable, not supported, not accurate-and not complete. We did, however,          results as not validated (if applicable)
in addition to another problem because we believe that the requirement for operating units to assess the quality of data
sources was a distinct function and potentially related to each of the type of problems included in the hierarchy.
                                                                              APPENDIX V
                                                                                Page 1 of 2

                    Office of the Inspector General’s Audit Reports
             on the Quality of Results Reported in        Operating Units’
          Results Review and Resource Request (R4) Reports Prepared in 1997


l   Audit of the Quality of Results Reported for the Republic of Georgia in
    Results Review and Resource Request (R4) Report Prepared in 1997 (Report No. B-l 14-98-
    005-P, dated August 26, 1998)

l   Audit of the Quality of Results Reported in               Center for Southern Africa’s
    (RCSA) Results Review and Resource Request (R4) Report Prepared in 1997 (Report No. 4-
    690-98-004-P, dated August 28, 1998)

l   Audit of the Quality of Results Reported in the Bureau for Humanitarian Response’s Office
    of Food for Peace Results Review and Resource Request (R4) Report Prepared in 1997
    (Report No. 9-000-98-003-P, dated September 3, 1998)

l   Audit of the Quality of Results Reported in            Results Review and Resource
    Request (R4) Report Prepared in 1997 (Report No. B-386-98-006-P, dated September 3,
    1998)

l   Audit of the Quality of Results Reported in       Salvador’s Results Review and
    Resource Request (R4) Report Prepared in 1997 (Report No. l-5 19-98-003-P, dated
    September 10, 1998)

l   Audit of the Quality of Results Data Presented in            Results Review and
    Resource Request (R4) Report Prepared in 1997 (Report No. 7-675-98-003-P, dated
    September 24, 1998)

l   Audit of the Quality of Results Data Presented in            Results Review and
    Resource Request (R4) Report Prepared in 1997 (Report No. 7-620-98-004-P, dated
    September 24, 1998)

l   Audit of the Quality of Results Reported in the Global Bureau’s Center for Human Capacity
    Development Results Review and Resource Request (R4) Report Prepared in 1997 (Report
    No. 9-000-99-001-P, dated October 5, 1998)

l   Audit of the Quality of Results Reported in the Bureau for Humanitarian Response’s Office
    of American Schools and Hospitals Abroad Results Review and Resource Request (R4)
    Report Prepared in 1997 (Report No. 9-000-99-002-P, dated October 7, 1998)
                                                                          APPENDIX V
                                                                            Page 2 of 2

Audit of the Quality of Results Reported in                        Results Review and
Resource Request (R4) Report Prepared in 1997 (Report No. 6-388-99-001-P, dated October
8, 1998)

Audit of the Quality of Results Reported in                  Results Review and Resource
Request (R4) Report Prepared in 1997 (Report No. l-523-99-00 1    dated October 13, 1998)

Audit of the Quality of Results Reported in                  Results Review and Resource
Request (R4) Report Prepared in 1997 (Report No. l-5 18-99-002-P, dated October 13, 1998)

Audit of the Quality of Results Reported in                        Results Review and
Resource Request (R4) Report Prepared in 1997 (Report No. 4-687-99-001-P, dated October
26, 1998)

Audit of the Quality of Results Data Presented in                   Results Review and
Resource Request (R4) Report Prepared in 1997 (Report No. 7-685-99-001-P, dated October
28, 1998)

Audit of the Quality of Results Reported in U&AID/Colombia’s Results Review and Resource
Request (R4) Report Prepared in 1997 (Report No. 1-514-99-003-P, dated October 30, 1998)

Audit of the Quality of Results Reported in                Results Review and
Resource Request (R4) Report Prepared in 1997 (Report No. 4-613-99-002-P, dated
November 10, 1998)

Audit of the Quality of Results Reported in             Results Review and Resource
Request (R4) Report Prepared in 1997 (Report No. 1-521-99-004-P, dated November 30,
1998)

Audit of the Quality of Results Reported by the Africa Bureau’s Office of Sustainable
Development in its Results Review and Resource Request Report Prepared in 1997 (Report
No. 9-000-99-003-P, dated December 17, 1998)
                                                                                                 APPENDIX VI
                                                                                                    Page 1 of 3


               Analysis of Reasons Cited by Operating Units for Problems
                        with the Indicators and Reported Results
                       (as reflected in their   prepared in 1997)


              Officials Were Not   More Attention is                 Staff   Lack of Expertise    Other Reasons (if
  Operating    Fully Aware of      Needed to Ensure    or Funds to Assess        to Develop        reasons cited did
     Unit       Requirements        Documents are       Validity of Data          Objective       not include any of
                                    Obtained and                              Indicators/Need     the other reasons
                                      Results are                               for Training       identified in this
                                      Supported                                                        analysis)

                                                                                                 Familiarity with the
                                                                                                    subject matter;
                                                                                                 urgency to complete
                                                                                                  and issue the R4;
                                                                                                   over-reliance on
                                                                                                      contractors

                                         N/A                                       N/A              Mission officials
                                                                                                     were unable to
                                                                                                 review the R4 before
                                                                                                 it was distributed due
                                                                                                   to time constraints

                                         N/A                  N/A                  N/A            Contractor did not
                                                                                                        retain
                                                                                                   documentation;
                                                                                                 unaware of problem
                                                                                                    with surveys

                                                              Yes                  Yes             Need for
                                                                                                      standards and
                                                                                                       guidance for
                                                                                                     collecting and
                                                                                                     reporting data;
                                                                                                    indicators were
                                                                                                   beyond
                                                                                                 manageable interest;
                                                                                                 lack of direction and
                                                                                                    oversight from


Bangladesh           Yes                 Yes                                                         Applying the
                                                                                                  objectivity criterion
                                                                                                     requires more
                                                                                                   complex analyses;
                                                                                                 the Mission believed
                                                                                                          that
                                                                                                  U&AID/Washington
                                                                                                   approval
                                                                                                     the Mission’s
                                                                                                 indicators as to being
                                                                                                       appropriate
Colombia                                 Yes                  Yes                  Yes
                                                                                                APPENDIX VI
                                                                                                   Page 2 of 3


              Officials Were Not   More Attention is                Staff   Lack of Expertise    Other Reasons (if
  Operating    Fully Aware of      Needed to Ensure    or Funds to Assess       to Develop        reasons cited did
    Unit        Requirements        Documents are       Validity of Data         Objective       not include any of
                                    Obtained and                             Indicators/Need     the other reasons
                                      Results are                              for Training       identified in this
                                      Supported                                                       analysis)

Ecuador              N/A                 Yes                  N/A                 Yes             Requirement for
                                                                                                    maintaining
                                                                                                     supporting
                                                                                                 documentation was
                                                                                                     not clearly
                                                                                                    established

El Salvador          Yes                 Yes                                                    Rotation of staff and
                                                                                                    lack of clear
                                                                                                responsibility; relied
                                                                                                on official estimates
Georgia             N/A                  Yes                  Yes                 N/A             Lack of approved
                                                                                                   strategy; lack of
                                                                                                time; problems with
                                                                                                     host country
Guinea               Yes                 Yes                 N/A                  Yes
Haiti                Yes                 Yes                                      Yes
India               N/A                  N/A                                                               to establish
                                                                                                   clear and explicit
                                                                                                 indicators for some
                                                                                                            activities;
                                                                                                    India is a large
                                                                                                country so good data
                                                                                                  is not available or
                                                                                                     may be
                                                                                                    consuming and
                                                                                                expensive; more care
                                                                                                    will be given to
                                                                                                proofing documents;
                                                                                                  pressure to report
                                                                                                     results for all
                                                                                                  indicators-even if
                                                                                                only incomplete data
                                                                                                      is available;
                                                                                                numerous changes in
                                                                                                    the indicators
Madagascar                                                                        N/A           Problems due to time
                                                                                                      constraints;
                                                                                                      considered
                                                                                                  provisional figures
                                                                                                   acceptable rather
                                                                                                 than not report any
                                                                                                         data
                                                                                              APPENDIX VI
                                                                                                 Page 3 of 3



                      Were Not   More Attention is                Staff   Lack of Expertise    Other Reasons (if
  Operating    Fully Aware of    Needed to Ensure    or Funds to Assess       to Develop        reasons cited did
    Unit       Requirements       Documents are       Validity of Data         Objective       not include any of
                                  Obtained and                             Indicators/Need     the other reasons
                                    Results are                              for Training       identified in this
                                    Supported                                                       analysis)

Mexico             N/A                 Yes                  Yes                               Not aware of extent
                                                                                                of inaccuracies;
                                                                                               implementation of
                                                                                              the ADS is new to
                                                                                                     them

Nigeria                                                                                         Only 9 months of
                                                                                                data was available
                                                                                                  when R4 was
                                                                                                prepared; Mission
                                                                                               believed       trips
                                                                                                were sufficient to
                                                                                              assess quality of data

Reg.                                   Yes
So. Africa

Senegal                                Yes                                      N/A           Uncertain of the data
                                                                                                  collection and
                                                                                                     reporting
                                                                                               requirements; some
                                                                                              confusion about what
                                                                                                  an assessment
                                                                                                     required

Zimbabwe           N/A                                      Yes                               A system of quality
                                                                                               control is needed;
                                                                                              reliance on outside
                                                                                              sources which were
                                                                                                not sufficiently
                                                                                                informed about
                                                                                                        reporting
                                                                                                     needs

Total                4                  IO
Operating
Units Citing
Reason for
Problem with
Reported
Result
